                             CLOSEOUT FOR M-98030011
        On 17 March 1998, OIG received allegations of misconduct in science from the
complainant.' The complainant specifically identified the subject2 as the person who allegedly
plagiarized (intellectual theft) the complainant's research work in a published paper (in
Journal 2) authored by ten people.3 The complainant explained that, although the complainant
was one of the co-authors on the paper, he had not been involved in its preparation and he had
not consented to be a co-author. In addition, the complainant alleged that the subject's science
was "suspicious."
        The complainant explained that he had participated as one of the ten co-authors in the
preparation of a manuscript for Journal 1.4 Before this manuscript was submitted to Journal 1,
the complainant was removed from the subject's research group. The manuscript was rejected
by Journal 1. The complainant said that the rejected manuscript was resubmitted to Journal 2.
The complainant provided a copy of a letter he had received from the editor of Journal 2, which
states that the manuscript rejected by Journal 1 had been resubmitted to Journal 2 along with
copies of three of Journal 1's ad hoc reviews. The editor of Journal 2 explained that the
manuscript was accepted for publication without additional external review, contingent on the
completion of revisions suggested by Journal 1's reviewers.
        The complainant, who initially told OIG that he would provide specific information
related to his allegations against the subject, subsequently informed OIG that he would not be
providing this information. OIG concluded that the complainant participated in the initial
preparation of the manuscript for 'Journal 1 and that this same manuscript was submitted to
Journal 2. Because the complainant was a co-author on the published paper, there is no
substance to the allegation that the subject plagiarized the complainant's research work in the
paper. OIG also noted that the resubmission of the same manuscript by the subject to Journal 2
without the complainant's permission is, in this case, not a serious deviation fiom accepted
practices and, hence, not misconduct in science.
       OIG learned fiom the complainant that the subject's "suspicious" science involved
disagreements over the subject's interpretations of data, not about the quality of the data.
Disagreement over interpretations, as described by the complainant in this case, is not
misconduct in science.
       This case is closed and no further action will be taken.
cc: Staff Scientist, Attorney, AIG Oversight, IG




                                        Footnotes Redacted



                                          Page 1 of 1
